Report No. DODIG-2013-043         February 28, 2013




       Evaluation of the Military Criminal
      Investigative Organizations' Sexual
         Assault Investigation Training
Additional Information
The Department of Defense Office of the Deputy Inspector General for Policy and
Oversight prepared this report. If you have questions, contact Mr. John Dippel at (703)
604-9294 (DSN 664-9294) or by e-mail at john.dippel@dodig.mil.

Suggestions for Reviews
To suggest or request reviews, contact the Office of the Assistant Inspector General for
Investigative Policy and Oversight by phone (703) 604-8804 (DSN 664-8804) or by mail:

                      Department of Defense Inspector General
                      AIG-IPO
                      ATTN: Suite 11H25
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500
                               INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                               4800 MARK CENTER DRIVE
                            ALEXANDRIA, VIRGINIA 22350-1500



                                                                       February 28, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR POLICY
               SECRETARIES OF THE MILITARY DEPARTMENTS
               COMMANDER, U.S. ARMY CRIMINAL INVESTIGATION
                  COMMAND
               DIRECTOR, NAVAL CRIMINAL INVESTIGATIVE
                  SERVICE
               COMMANDER, AIR FORCE OFFICE OF SPECIAL
                  INVESTIGATIONS
               DIRECTOR, DOD SEXUAL ASSAULT PREVENTION AND
                  RESPONSE OFFICE

SUBJECT: Evaluation of the Military Criminal Investigative Organizations’ Sexual
         Assault Investigation Training (Report No. DoDIG-2013-043)

        This final report is provided for information and use. We evaluated the Military
Criminal Investigative Organizations’ (MCIOs’) sexual assault investigation training to
determine whether it adequately supports the Department. We undertook this self-
initiated project to meet our statutory obligation to provide policy, oversight, and
performance evaluation with respect to all DoD activities relating to criminal
investigation programs. Further, DoD Instruction 6495.02, “Sexual Assault Prevention
and Response Program Procedures,” June 23, 2006, emphasizes the DoD Inspector
General’s responsibility to oversee sexual assault investigation training.

        We found that each MCIO provides initial baseline, periodic refresher, and
advanced sexual assault investigation training to their criminal investigative personnel;
however, the time each MCIO devoted to the required training tasks varied. Further, all
training academies measure the effectiveness of their initial and advanced training
courses with testing and course critiques. Each MCIO uses these evaluation tools to
adjust training content to increase effectiveness. In addition, the U.S. Army Criminal
Investigation Command (CID) and the Naval Criminal Investigation Service (NCIS) have
leveraged resources by sharing instructors and highly qualified and subject matter experts
to assist with training course development and delivery.

        The MCIOs responded to our draft report. Management comments were
responsive to the draft and conformed to the requirements of DoD Directive 7650.3. The
Commander, CID concurred in part with our recommendations, but objected to forming a
working group to review periodic refresher sexual assault investigation training to
establish common criteria and minimum requirements to refine methods for measuring
effectiveness. Overall, the Director, NCIS and the Commander, U.S. Air Force Office of
Special Investigations (AFOSI) concurred with our recommendations.
Report No. DoDIG-2013-043                                                    February 28, 2013


               Results in Brief: Evaluation of the Military Criminal Investigative
               Organizations’ Sexual Assault Investigation Training

                                                          Also, CID assisted NCIS by instructing at their
What We Did                                               advanced sexual assault investigation training
We evaluated the Military Criminal                        course.
Investigative Organizations’ (MCIOs’) sexual
assault investigation training to determine               What We Recommend
whether it adequately supports the Department.
Our evaluation focused on the following                   •   The Director, NCIS, ensure lesson materials
questions:                                                    for initial sexual assault investigation
                                                              training covers all essential training tasks.
    • What sexual assault investigation                   •   The Director and Commanders of the
      training do the MCIOs provide?                          MCIOs form a working group to review (1)
    • How do the MCIOs ensure that sexual                     initial baseline sexual assault investigation
      assault investigation training is                       training programs to establish common
      effective?                                              criteria and minimum requirements, (2)
    • How do the MCIOs leverage their                         periodic refresher sexual assault
      resources and expertise?                                investigation training programs to establish
                                                              common criteria and minimum requirements
What We Found                                                 for measuring effectiveness, and (3)
Each MCIO provides initial baseline, periodic                 advanced sexual assault investigation
refresher, and advanced sexual assault                        training programs to further capitalize on
investigation training to assigned criminal                   efforts to leverage training resources and
investigative personnel who may conduct sexual                expertise.
assault investigations. Between MCIOs, the
training hours devoted to initial baseline training       Management Comments and
tasks varied. Further, Naval Criminal                     Our Response
Investigative Service (NCIS) initial baseline
                                                          The Director, NCIS commented that all
training materials did not cover four required
                                                          essential training tasks are addressed; however,
essential training subtasks.
                                                          not all are well-detailed in lesson plans and
                                                          slides.
All MCIO training academies measure the
effectiveness of initial and advanced training
                                                          The MCIOs objected to efforts to improve
courses, and they use the results to adjust
                                                          periodic refresher training; however, they
training content to increase effectiveness.
                                                          concurred with recommendations to improve
Conversely, the MCIOs do not measure the
                                                          initial baseline training and to review advanced
effectiveness of periodic refresher training.
                                                          training and work toward leveraging resources,
                                                          advising they have begun many new initiatives
CID has attempted to consolidate MCIO
                                                          relative to sexual assault investigation training.
advanced sexual assault investigation training.
CID and NCIS share highly qualified and
                                                          See the recommendations table on the next
subject matter experts (HQE and SME) to assist
                                                          page.
with training course development and delivery.

                                                      i
Report No. DoDIG-2013-043                                 February 28, 2013

Recommendations Table

       Management            Recommendations        No Additional Comments
                            Requiring Comment             Required
Director, Naval Criminal
Investigative Service                           1 and 2

Commander, U.S. Army
Criminal Investigation                          2
Command

Commander, U.S. Air Force
Office of Special                               2
Investigation




                                   ii
Table of Contents

Introduction                                                             1

      Objectives                                                         1
      Background                                                         1

Finding: Adequacy of the MCIOs Sexual Assault Investigation Training     5

      What Sexual Assault Investigation Training Do the MCIOs Provide?   5
      How do the MCIOs Ensure Sexual Assault Investigation Training
        is Effective?                                                    21
      How do the MCIOs Leverage Their Resources and Expertise?           24
      Conclusion                                                         25
      Recommendations, Management Comments, and Our Response             27

Appendix

      A. Scope and Methodology                                           32

      CID Comments                                                       34
      NCIS Comments                                                      38
      AFOSI Comments                                                     42


Glossary                                                                 47
Introduction
Objectives
                                                                                   1
We evaluated the Military Criminal Investigative Organizations’ (MCIOs’) sexual
assault investigation training to determine whether it adequately supports the Department.
Our evaluation focused on the following questions:

          •   What sexual assault investigation training do the MCIOs provide?
          •   How do the MCIOs ensure that sexual assault investigation training is
              effective?
          •   How do the MCIOs leverage their resources and expertise?

See the Appendix for a discussion of the scope and methodology.

Background
The Department of Defense Inspector General (DoD IG) has statutory authority in
accordance with the Inspector General Act of 1978 for policy, oversight, and
performance evaluation with respect to all DoD activities relating to criminal
investigation programs. This authority is embodied in DoD Directive (DoDD) 5106.01,
“Inspector General of the Department of Defense (IG DoD),” April 20, 2012, and DoD
Instruction (DoDI) 5505.03, “Initiation of Investigations by Defense Criminal
Investigative Organizations,” March 24, 2011. Additionally, DoDI 6495.02, “Sexual
Assault Prevention and Response Program Procedures,” June 23, 2006, emphasizes the
DoD IG’s responsibility to oversee sexual assault investigations and sexual assault
investigation training.

In its June 22, 2011 report, “Military Justice: Oversight and Better Collaboration Needed
for Sexual Assault Investigations and Adjudications,” the Government Accountability
Office (GAO) recommended that the Secretary of Defense direct the Service secretaries
to develop a plan for “leveraging . . . resources and expertise for investigating . . . sexual
assault incidents, such as by consolidating training programs and sharing resources,
including highly qualified experts . . .” GAO further reported that although the Military
Services developed and implemented sexual assault-specific training for their respective
investigators, the DoD IG had not assessed the content and effectiveness of the training,
“such as evaluating how many agents are currently meeting a minimum standard of
competency.” GAO recommended that the DoD IG develop and implement clear goals,
objectives, and performance data for monitoring and evaluating the Services’ sexual
assault investigations and related training.



1
 The MCIOs include the U.S. Army Criminal Investigation Command, Naval Criminal Investigative
Service, and Air Force Office of Special Investigations.
In July 2011, the DoD IG formed a new unit focused on evaluating and improving the
quality of the Department’s violent crime investigations, including sexual assault, as well
as investigative training programs that form the foundation for sound investigative
products.

Compliance With Policy and Requirements
DoDI 6495.02 establishes requirements and responsibilities for DoD Components;
including the DoD Sexual Assault Prevention and Response Office (SAPRO), the DoD
IG, and the Secretaries of the Military Departments; relating to DoD’s response to sexual
assault incidents. The Instruction states that except for criminal investigative policy
matters that are assigned to the DoD IG, DoD SAPRO is responsible for developing,
among other things, training standards for the prevention, reporting, response, and
program accountability of sexual assaults involving Service members. In addition, DoDI
6495.02 designates MCIO criminal investigators as DoD sexual assault first responders.
As such, each MCIO criminal investigator is required to receive the same baseline
training. The training standards specified in DoDI 6495.02 form the baseline that the
Military Services and specialized communities can build on. The essential training tasks
established for the MCIO’s in DoDI 6595.02 include:

           1. Sexual Assault Response Policies
                  • DoD policies
                  • Military Service-specific policies
                  • DoD confidentiality policy rules and limitations
           2. Victimology
                  • victimization process
                  • potential victim responses (trauma, post-traumatic-stress disorder)
           3. Sex Offenders
           4. Crime Scene Management
                  • securing the crime scene
                  • identifying and collection of fragile evidence
                  • addressing chain of custody issues
           5. Interview Techniques (suspect and victim)
           6. Investigating Difficult Cases
                  • impaired victims (alcohol impairment, drug-facilitated sexual
                     assaults)
                  • multiple suspects
                  • domestic violence sexual assaults
           7. Recantations and False Information
                  • proper investigation of recantations
                  • factors influencing false reports
           8. Working with victim advocates (VAs) and sexual assault response
              coordinators (SARCs)
                  • VA and SARC roles, responsibilities, and limitations
                  • victim services and support programs


                                             2
No DoD or Military Service policy establishes minimum training standards or minimum
competency standards for the essential sexual assault investigation training tasks.
However, DoDI 6495.02 requires MCIO criminal investigators to receive initial and
periodic refresher training on the essential training tasks. DoDI 6495.02 does not define
periodic refresher training and does not address advanced sexual assault investigation
training. For purposes of this evaluation, we developed the following definitions: 2

        Initial Training. A program of baseline instruction designed to provide basic
and fundamental training techniques, concepts, and methodologies of conducting
criminal investigations of alleged sexual assaults, which covers, at a minimum, the
essential training tasks.

        Periodic Training. Training provided in addition to initial (baseline) essential
task training, which may include periodic refresher training. In practical terms, the
MCIOs determine their own periodic training requirements; however, DoDI 6495.02
requires that initial and periodic refresher training include the essential training tasks.

        Periodic Refresher Training. A program of instruction for MCIO criminal
investigators designed to refresh the skills and concepts learned in initial, advanced, and
prior periodic refresher training. Training includes specialized skills required to
investigate sexual assault effectively and covers, at a minimum, the essential training
tasks.

        Advanced Training. A specialized program of instruction for MCIO criminal
investigators specifically designed to provide a higher level of proficiency and
understanding in the complexities of sexual assault investigation.

DoD Directive 6495.01 requires an:
                 . . . immediate, trained response capability for each report
                 of sexual assault in all locations, including deployed
                 locations, and ensure victims of sexual assault are
                 protected, treated with dignity and respect, and receive
                 timely access to treatment and services.

Within DoD, the MCIOs provide the trained and capable response to investigate reported
sexual assaults in all locations.

Even if the MCIOs employ the highest quality personnel, they need training to become
competent criminal investigators. Much of the training necessary for the investigation of
sexual assault is the same as that needed for other criminal investigations. However,
sexual assault investigations require additional skills. To help ensure that quality training




2
 We developed the definitions using similarly titled training courses offered by the Federal Law
Enforcement Training Center.

                                                    3
is provided, the DoD IG is required to provide oversight of sexual assault investigation
training within DoD investigative and law enforcement communities.

Within DoD, the MCIOs are responsible for investigating most sexual assaults. 3 In the
Army, CID investigates all sexual assault complaints. At the time of this evaluation, 4
NCIS and AFOSI did not investigate one type of complaint, “wrongful sexual contact” 5
(formerly “indecent assault”). This offense involved improper, unwanted touching of a
sexual nature with the specific intent to demean the victim and gratify the lust of the
accused’s sexual desires. Navy Masters at Arms, Marine Corps CID investigators, and
Air Force Security Forces investigators investigate wrongful sexual contact.

In addition, the MCIOs develop Service-specific investigative policy and requirements to
govern the conduct of sexual assault investigations and train their criminal investigators
in accordance with DoD policies and their Service’s training standards.

NCIS and AFOSI criminal investigators receive most of their investigative training at
Federal Law Enforcement Training Center (FLETC), Glynco, Georgia, while attending
the Criminal Investigator Training Program (CITP), and each respective agency’s Service
specific follow-on investigative training program. In response to a recommendation in
the National Academy of Public Administration report, “Adapting Military Sex Crime
Investigations to Changing Times,” June 1999, the AFOSI moved its training academy
from Andrews Air Force Base, Maryland, to FLETC in 2002. NCIS already received
investigative training at FLETC. Both NCIS and AFOSI provide agency-specific
training, to include sexual assault investigation training following completion of the
CITP. CID trains its criminal investigators at United States Army Military Police School
(USAMPS), Maneuver Support Center of Excellence, Fort Leonard Wood, Missouri.
Both FLETC and USAMPS are Federal Law Enforcement Training Accreditation
(FLETA) 6-accredited institutions.




3
  Under the 2008 UCMJ, Sexual assault includes rape, forcible sodomy (oral or anal sex), and other
unwanted sexual contact that is aggravated, abusive, or wrongful (to include unwanted and inappropriate
sexual contact), or attempts to commit these acts. The definition generally encompasses offenses classified
under Articles 120 and 125 of the Uniform Code of Military Justice (UCMJ).
4
  Definitions contained in the 2008 version of the UCMJ were in effect at the time of this review.
5
  Article 120, UCMJ, (2008), (m) “Wrongful sexual contact” states that any person subject to this chapter
who, without legal justification or lawful authorization, engages in sexual contact with another person
without that other person’s permission is guilty of wrongful sexual contact and shall be punished as a court-
martial may direct.
6
  According to its Web site, http://www.fleta.gov/, FLETA is an accreditation community made up of
Federal agency accreditation managers, assessors, FLETA Board members, and other individuals invested
in accrediting Federal law enforcement training.

                                                     4
Finding. Adequacy of the MCIOs Sexual
Assault Investigation Training
To determine the adequacy of the training, we focused on the following questions:

          •    What sexual assault investigation training do the MCIOs provide?
          •    How do the MCIOs ensure that sexual assault investigation training is
               effective?
          •    How do the MCIOs leverage their resources and expertise?

What Sexual Assault Investigation Training do the
MCIOs Provide?
Initial Training
All three MCIO’s provide initial baseline sexual assault investigation training as required
by DoDI 6495.02. As DoD sexual assault first responders, each MCIO criminal
investigator is required to receive the same baseline training. The only definitive training
standard in DoDI 6495.02 is that initial sexual assault investigation training must cover
all of the essential training tasks specified in DoDI 6495.02 to “form the baseline the
Military Services and specialized communities can build on.” Our review of each
MCIO’s initial training indicates that although all three cover, or come close to covering,
the essential training tasks, the training programs are similar but not the same. For
example, based on documents provided in response to our data call, CID provides 16
hours of classroom training to cover the eight tasks, NCIS provides 6 hours, and AFOSI
provides at least 4 hours. NCIS and AFOSI supplement their classroom lecture training
with practical exercises that include handling sexual assault investigations. Absent a
standard for just how many hours each MCIO should devote to initial sexual assault
investigation training, we relied on whether each program covered the essential training
tasks as the standard for adequacy.

Army
At the time of this evaluation, USAMPS used the Systems Approach to Training (SAT) 7
academic training model. SAT is the Army’s training development process. SAT
determines whether training is needed; what the training will cover; who will receive the
training; how and where the training will be presented and how in-depth it will be; and
the training support and resources required to produce, distribute, implement, and
evaluate the training programs.




7
 SAT is based on instructional systems design and was established to manage the instructional program’s
process of analyzing, designing, developing, implementing, and evaluating the training. Effective
December 6, 2011, SAT was replaced by the Army Learning Policy and Systems subsequent to the
publication of U.S. Army Training and Doctrine Command Regulation 350-70.

                                                   5
The CID Headquarters (HQ) provides doctrine and training requirements for sexual
assault investigative training to the USAMPS, Fort Leonard Wood, Missouri. CID
assigns qualified criminal investigators to the Military Police Investigation Division
(MPID), USAMPS, which is a U.S. Army Training and Doctrine Command (TRADOC)
element, to serve as instructors. The Criminal Investigation Division Special Agents
Course (CIDSAC) provides basic criminal investigative instruction to investigate crimes,
including sexual assault.

Criminal Investigation Division Special Agents Course
CIDSAC is a 15-week course for prospective civilian, enlisted, and warrant officer
criminal investigators. CIDSAC includes training in the following areas: criminal law;
crime scene processing; testimonial evidence; investigations of crimes against persons
and property; physical evidence; drug investigations; fraud, waste, and abuse
investigations; investigative reports; special investigative techniques; and protective
service training. CIDSAC is offered on a reoccurring basis, approximately five to six
times a fiscal year and can accommodate approximately 24 students per class. The
Family Advocacy Law Enforcement Training Division (FALETD), USAMPS provides
16 hours of sexual assault investigation training. Additionally, USAMPS provides 80
hours of crime scene management training, of which, 14 hours is specific to sexual
assault. USAMPS has developed and implemented the required essential training tasks
into the CIDSAC course in the following areas (see Table 1).

                                      Table 1. CIDSAC Training Topics
                  Topic                                           Training Covers

DoD/Department of the Army (DA)/CID          Uniform Code of Military Justice (UCMJ) Articles 120 and
Policy Overview                              125; SAPR Program, role of the SARCs and VAs, DoD
                                             sexual assault policy, restricted reporting, unrestricted
                                             reporting, Victim Preference Statement (VPS), Department
                                             of the Army Regulation 27-10, “Legal Services Military
                                             Justice,” and the Victim and Witness Assistance Program
                                             (VWAP).

Working with and the SARC and VAs            Overview of the roles of the SARC and VA.

Restricted & Unrestricted Reporting          Overview of victims of sexual assault who wish to
                                             confidentially disclose the crime to specifically identified
                                             individuals and receive medical treatment and counseling
                                             without triggering the official investigative process. In
                                             addition, an overview of victims of sexual assault who
                                             desire medical treatment, counseling, and an official
                                             investigation of the crime. The students are provided an
                                             overview of both possibilities and the differences present in
                                             the two.

Independent Investigations                   Overview of investigations by the Standards of Conduct
                                             Office to meet obligations to conduct prompt, thorough, and
                                             impartial investigations in the workplace of an internal
                                             investigation or inquiry and the differences between a


                                                  6
                                            criminal and administrative independent investigation.

Victimology                                 Overview of the study of the ways in which the behavior of
                                            victims of a crime is indeterminately changed as well the
                                            relationships between victims and offenders, victims and the
                                            criminal justice system, and victims and other social groups
                                            and institutions.

Differentiating Between False Information   An overview of the difference between false information
and False Reports                           and false reporting.

Challenges to Credibility                   Overview of personal credibility and the manner in which
                                            victims, offenders, lawyers, commanders, etc., can attack
                                            your credibility during sexual assault investigations.

Victim Interviews                           Overview of conducting interviews of sexual assault victims
                                            as well as victims of other various crimes. Practical
                                            exercises of thoroughly documenting and conducting victim
                                            interviews to include victims of sexual assault. Also, how
                                            to deal with anger, frustration, and hostility that victims
                                            experience.

Investigating Recantations                  Knowledge regarding victim recantation, when the victim
                                            retracts or withdraws a reported sexual assault. Overview
                                            of recantations routinely used by victims to disengage
                                            themselves.

Marital Rape                                Overview of marital or spousal rape-when nonconsensual
                                            sex between husband and wife has occurred. Knowledge of
                                            domestic violence is also discussed during this block of
                                            instruction.

Same-Sex Sexual Assaults                    Overview of same-sex sexual assaults.

Drug-Facilitated Sexual Assaults            Overview of drug-facilitated sexual assaults typically
                                            referred to as “date rape” or “drug rape.” The offender uses
                                            drugs such as alcohol, gamma-hydroxybutyrate (GHB), or
                                            flunitrazepam (Rohypnol) to incapacitate the victim so the
                                            offender can carry out the assault.

Understanding Sex Offenders                 Overview of sex offenders regarding rape or child
                                            molestation. Further, a brief overview of a sexual
                                            offenders’ psyche and reason behind offending.

Sex Offender Interviews                     Overview of interviewing sex offenders, their justification,
                                            thinking, and manipulation of the incident.

Crime Scene Management                      Knowledge of crime scene management including securing
                                            the crime scene, identifying and collecting fragile evidence,
                                            and addressing evidence chain of custody issues.




                                                 7
CIDSAC students are taught all required essential training tasks throughout the course
and have numerous written and hands-on examinations. Students are required to achieve
at least 70 percent on each examination to graduate. FALETD teaches the 16 hours of
sexual assault investigations training. However, pending development of testing
materials, sexual assault investigations training is not testable. Other sexual assault-
related topics; such as law, interviews and interrogations, and crime scenes; are currently
testable.

Navy
NCIS uses SAT, which adopts the instructional system design (ISD) model to develop
and manage training. NCIS provides sexual assault investigation training during the
Special Agent Basic Training Program (SABTP), an agency-specific add-on course to the
FLETC’s CITP course. Students are tested during the SABTP and they must attain an
80 percent score to pass. If students fail examinations, they receive remedial training and
are given an opportunity to retest. If they fail a retest they are removed from training.

Special Agent Basic Training Program
SABTP students receive 6 hours of sexual assault investigation training, which includes 6
hours of classroom presentation and is augmented with a 26-hour continuing case
investigation exercise. Students are guided through all phases of investigating a sexual
assault complaint, from the initial report of a sexual assault to the pretrial investigation.
SABTP offers the training twice per fiscal year and can accommodate approximately 20
students per class. In the SABTP, there are two training tasks related to sexual assault
investigations.
•   Task Number 36, “Knowledge of DoD/NCIS sexual assault investigative procedures
    and responsibilities,” (NCIS Lesson Plan 2332, “Sex Crime Investigations”) and
•   Task Number 38, “Conduct a sexual assault investigation,” (NCIS Lesson Plan 2331,
    “Sexual Assault Continuing Case Investigation,” consisting of multiple-phase
    laboratories designed to help criminal investigators use NCIS methods and
    procedures for conducting a criminal investigation from receipt of a NCIS “duty
    call” 8 to a Uniform Code of Military Justice [UCMJ] Article 32 hearing 9).
NCIS Lesson Plan 2332, “Sex Crime Investigations,” includes the following performance
objectives:

         1. Identify myths (and prejudices) regarding sexual assault,
         2. Describe DoD sexual assault policy,
         3. Describe victim specific issues, and
         4. Describe sex crimes investigative protocols.


8
 The term “duty call” refers to when a criminal investigator is called to a report of a crime to investigate.
9
 A UCMJ Article 32 hearing is the military justice system’s equivalent to a civilian preliminary hearing.
The purpose of the Article 32 hearing is to determine whether sufficient evidence exists to proceed with the
charges to a General Court-Martial.

                                                     8
The sex crimes investigation training consists of a 6-hour classroom presentation.
Table 2 lists training topics identified in NCIS Lesson Plan 2332.
                            Table 2. NCIS Lesson Plan 2332 Training Topics
                 Topic                                          Training Covers

Myths and Prejudices                     Myths and prejudices concerning rape and sexual assault.

DoD Sexual Assault Policy                UCMJ Articles 120 and 125, SAPR Program, role of the
                                         SARC and VAs; DoD sexual assault policy, restricted
                                         reporting; unrestricted reporting, VPS, and OPNAVINST
                                         Instruction 5800.7A, “Victim and Witness Assistance
                                         Program (VWAP).”

Victim-Specific Issues                   Treatment and care of victims, stages of trauma,
                                         counterintuitive behaviors, and male rape.

Sex Crimes Investigative Protocols       Criminal investigator response to the call; initial victim
                                         contact; interview process; initial interview (victim); crime
                                         scene search, which includes protecting the crime scene and
                                         collecting evidence; Sexual Assault Response Team (SART)
                                         exam, which includes collecting evidence and maintaining
                                         chain of evidence; SART exam process; medical concerns;
                                         medical records; victim re-contact for in-depth interview;
                                         force or lack of consent, which also includes intoxication;
                                         cognitive interviewing techniques; role of visual imagery;
                                         document emotion and senses in the statement; interview
                                         process; predatory rape drugs–symptoms; signs of drug
                                         ingestion; interview for drug-facilitated sexual assault; crime
                                         scene(s) search for drug-facilitated sexual assault; follow-up
                                         investigation pretext calls; false or omission of information;
                                         recantation; false allegations–no sexual assault has occurred;
                                         suspect; interrogation of suspect–defenses; prosecution; and
                                         the Sexual Assault Investigation Protocol Checklist.



NCIS Lesson Plan 2331, “Sexual Assault Continuing Case Investigation,” includes the
following performance objectives:
             1. Conduct and document a crime scene examination,
             2. Conduct and document interviews of a sexual assault victim and
                witnesses,
             3. Conduct a recorded pretext telephone call between a victim and suspect,
             4. Brief a commanding officer,
             5. Conduct an interview and/or interrogation,
             6. Obtain a Permissive Authorization for Search and Seizure,
             7. Formulate and execute an operational plan,

                                                9
           8. Execute a Permissive Authorization for Search and Seizure,
           9. Arrest and/or apprehend a suspect,
           10. Interrogate a suspect, and
           11. Provide testimonial evidence in a UCMJ Article 32 hearing.
According to the lesson plan, criminal investigators, after receiving a sexual assault
investigation complaint scenario, will conduct a criminal investigation commencing with
their receipt of an NCIS duty call and continuing to a UCMJ Article 32 hearing. Table 3
identifies the six phases of SABTP.
                 Table 3. Continuing Case Investigation Exercise Phases
                    Phase                         Topic

                      I       Crime Scene Examination

                      II      Victim Interview

                     III      Recorded Pretext Telephone Call

                     IV       Commanding Officer Brief/Witness Interviews

                      V       Suspect Arrest/Apprehension

                     VI       Mock Article 32 Hearing



These lesson plans do not address all essential training tasks required by DoDI 6495.02.
For example, SABTP does not cover training relating to sex offenders, multiple suspects,
domestic violence sexual assault, and victim services and support programs.

Air Force
AFOSI uses the ISD educational model as required by Air Force Instruction 36-2201,
“Air Force Training Program,” September 15, 2010.

Basic Special Investigations Course
The Basic Special Investigations Course (BSIC) is a 7-week, agency-specific follow-on
course to FLETC’s CITP. The BSIC provides training in firearms, defensive tactics,
forensics, surveillance and surveillance detection, antiterrorism techniques, crime scene
processing, interrogations and interviews, court testimony, and military and Federal law.

BSIC students receive classroom presentations on sex crime investigations at least 4-
hours in length. The lectures include slides and training aids, such as the Sexual Assault
Forensic Examination (SAFE) kit. The students are instructed in how to use the kit in a
hands-on exercise facilitated by the instructor. The standard for passing written
examinations during the course is 70 percent, and the standard for passing hands-on

                                             10
evaluations, such as practical exercises and labs, is 80 percent. However, exams for
certain hands-on exercises are pass/fail. Both written examinations and practical
exercises are given throughout the course.

BSIC training includes a 1-week capstone exercise called “Detachment Operations”
which captures all previous BSIC lessons and provides students an opportunity to
demonstrate their knowledge of material in a dynamic team environment, including
handling sexual assault cases. BSIC classes have a maximum enrollment of 48 students
and are offered 4-5 times a fiscal year.

BSIC includes remedial training for any students who perform below standards on any
test. Following remedial training, students must pass the examination or practical
exercise. A student who fails two academic exams, or a combination of one academic
exam and one practical exercise, is immediately dismissed per the Commander, United
States Air Force Special Investigations Academy (USAFSIA) recommendation.

BSIC Lesson Plan 01-12-09-01-11-01, “Sexual Assault Investigations,” January 10,
2011, includes the following Terminal Performance Objective (TPO) 10 and eight
Enabling Performance Objectives (EPOs). 11
TPO:
        Given a sexual assault investigation scenario, the student will be able to identify
        DoD and AFOSI policies and procedures regarding sexual assault
        investigations. 12 The student will also identify measures needed to collect and
        preserve evidence of a sexual assault in accordance with Air Force Office of
        Special Investigations Manual 71-118, “General Investigative Methods,” and Air
        Force Office of Special Investigations Manual 71-122, “Criminal Investigations,”
        the student text, the sexual assault investigations lecture, and the SAFE kit
        instructions.
EPO:
        1) Identify DoD policies for investigating sexual assaults;
        2) Explain AFOSI investigative responsibility in offenses of a sexual nature;
        3) Identify emotional, legal, and social considerations encountered when
           investigating sexual assault;
        4) Identify appropriate steps needed to identify, collect, and preserve evidence
           obtained during a sexual assault investigation;
        5) Describe the purpose of a sexual assault examination and identify the role of
           investigators and medical providers during collection;
        6) Identify three major types of difficult sexual assault cases;
        7) Identify the characteristics of the nonstranger rapist; and


10
   An objective made up of subordinate objectives that the learners would be expected to accomplish when
they have completed the instruction.
11
   An objective that should be attained in order to accomplish a terminal objective.
12
   Air Force Lesson Plan 01-12-09-01-11-01 does not reflect the dates of issuance of AFOSI Special
Investigations Manuals 71-118 and 71-122.

                                                  11
         8) Identify reasons for recantations and false information.

Table 4 lists training topics and training areas covered in BSIC Lesson Plan 01-12-09-01-
11-01.
                  Table 4. BSIC Sexual Assault Investigation Training Topics
                        Topic                                                  Training Covers

Identify DoD policies for investigating sexual                Identifies applicable DoD policy and explains
assaults                                                      restricted and unrestricted reporting, policy
                                                              limitations, and SAFE kits.

Explain AFOSI investigative responsibility in                 Any changes to UCMJ Article 120 and the AFOSI
offenses of a sexual nature                                   investigative policies.

Identify emotional, legal, and social considerations          Victim sensitivity, emotional responses, and how to
encountered when investigating sexual assault                 handle issues.

Identify appropriate steps needed to identify,                How initial allegations may be received, victim
collect, and preserve evidence obtained during a              safety, and securing a crime scene.
sexual assault investigation

Describe the purpose of a sexual assault                      Typical investigative processes in sexual assault
examination and identify the role of investigators            investigations.
and medical providers during collection

Identify three major types of difficult sexual assault        Impaired victims, multiple subjects, nonstranger
cases                                                         rapes.

Identify the characteristics of the nonstranger rapist        Domestic violence, power, and aggression.

Identify reasons for recantations and false                   Recantation, false allegation, unfounded allegation,
information                                                   and how to differentiate.



AFOSI BSIC Lesson Plan 01-12-09-01-11-01 addresses all essential training tasks
required by DoDI 6495.02.

Periodic Refresher Training
DoDI 6495.02 requires all military and civilian criminal investigators assigned to MCIOs
to receive periodic refresher training. DoDI 6495.02 does not specify how often refresher
training will be conducted.

Army
Starting in 2005 and continuing until 2008, CID, with the assistance of USAMPS,
provided refresher training annually, through mobile training teams (MTTs). One
Supervisory Special Agent (SSA) stated that in an effort to get as many criminal
investigators as possible through refresher training, MTTs provided refresher training at
high-density CID unit locations for a few years until funding became an issue. Since

                                                         12
2008, CID has provided PowerPoint slides to criminal investigators to facilitate refresher
training. In addition to slide presentations, in 2010, CID provided refresher training in
the form of investigative case reviews, which required criminal investigators to review
closed/adjudicated sexual assault investigation case files and annotate their observations.
A highly qualified expert (HQE) from USAMPS FALETD graded the observations and
provided feedback to the field criminal investigator. An SSA said the case review
approach to refresher training was time-consuming, making it difficult to complete
because field criminal investigators lack time for training during a workday. Two SSAs
told us none of their subordinates received feedback during the case review process.

Another SSA explained that the 2011, refresher training contained 8 hours of academic
training in contrast to 2012 training. The 2012 training is shorter, but it focuses on
sharing best practices, practical exercises, and more criminal investigator dialogue.
Although perceptions varied, supervisors and criminal investigators agreed that refresher
training was being completed as required. Almost every criminal investigator we
contacted told us refresher training was being conducted, it was meaningful and effective,
and they all learned from the experience.

CID sexual assault refresher training addressed all essential training tasks and complied
with DoDI 6495.02.

Navy
NCIS criminal investigators receive annual refresher training. NCIS annual refresher
training consists of PowerPoint slides available on-line. Table 5 provides details
regarding the training topics covered.

                Table 5. Sexual Assault Refresher Training Topics and Content
                  Training Topic                                    Training Covers

Sexual Assault Response Policies                  DoD and NCIS sexual assault policies and DoD
                                                  confidentiality policy rules and limitations, which
                                                  include restricted and unrestricted reporting.

Victimology                                       Victim responses to trauma and post-traumatic-
                                                  stress disorder.

Understanding Sex Offenders                       Understanding the nuances of sexual offenders.

Crime Scene Management                            Securing the crime scene, identifying and collecting
                                                  fragile evidence, and addressing chain of custody
                                                  issues.

Interview Techniques                              Victim and suspect interviews.

Investigating Difficult Cases                     Impaired victims, which includes alcohol- and
                                                  drug-facilitated sexual assault, multiple suspects,
                                                  and domestic violence sexual assault.




                                             13
Recantations and False Information                    Recantations and false reports.

Working with the SARCs and VAs                        Roles of SARCs, VAs, and victim services.



NCIS sexual assault refresher training addressed all essential training tasks and complied
with DoDI 6495.02.


Air Force
AFOSI criminal investigators receive annual sexual assault investigation refresher
training. AFOSI provides sexual assault investigation refresher training through a
computer-based training platform facilitated by the AFOSI Learning Management
System (LMS). 13 LMS has one block of instruction dedicated to the investigation of
sexual assaults, which is periodically updated and adheres to the refresher training
requirement. One supervisor stated that he did not recall much of the on-line training
content and did not believe on-line-type course instruction was the best method to deliver
refresher training. AFOSI supervisors stated that they believe that AFOSI has made great
strides regarding refresher training, but the training method could be improved. Table 6
provides the AFOSI LMS refresher training topics and details.




13
   LMS is an AFOSI web-based learning management system, which provides training, notifies when
training is due, and tracks training completion.

                                                 14
                  Table 6. AFOSI LMS Refresher Training Topics and Details
                       Topic                                            Details

Sexual Assault Response Policies                 DoD and AFOSI sexual assault policies and
                                                 essential tasks for a sexual assault response.

Victimology                                      Psychology of the crime, victim considerations,
                                                 victim responses, victim trauma, post-traumatic-
                                                 stress disorder.

Understanding Sex Offenders                      Common categories of adult sex offenders.

Crime Scene Management                           Securing the crime scene, identifying and collecting
                                                 fragile evidence, and addressing chain of custody
                                                 issues.

Interview Techniques                             Lead criminal investigator and criminal investigator
                                                 taking notes and consult with a Forensic Science
                                                 Coordinator before interviews and contact
                                                 psychologists, if needed.

Investigating Difficult Cases                    Impaired victims, which includes alcohol- and
                                                 drug- facilitated sexual assault, multiple subjects,
                                                 and domestic violence sexual assault.

Recantations and False Information               Recantations and false information.

Working with the SARC and VAs                    Roles of the SARC, VAs, and victim services.




AFOSI sexual assault refresher training addresses the essential training tasks required by
DoDI 6495.02.


Advanced Training
As previously stated, advanced sexual assault investigation training is not required by
DoD policy. However, two of the three MCIOs (CID and NCIS) provide advanced
sexual assault investigation training courses for certain criminal investigators based on
their investigative responsibilities. AFOSI did not have an advanced sexual assault
investigation training course; however, in August 2012, AFOSI implemented an
advanced sexual assault investigation training course. We did not evaluate this training
because its implementation postdated our evaluative work.

Army

Special Victims Unit Course
The Special Victims Unit (SVU) course is a 10-day, 80-hour course designed to provide
advanced specialized training for criminal investigators charged with investigating sexual
assaults. Table 7 lists training topics and training areas covered in the SVU course.

                                            15
                           Table 7. SVU Investigative Training Topics
                       Topic                                        Training Covers

DoD and Service-Specific Policy, Roles, and        Determine how to identify DoD, Department of the
Responsibilities                                   Army (DA), and CID policies and procedures and
                                                   apply those policies and procedures to a criminal
                                                   investigation of sexual assault.

Legal Aspects and Challenges                       Overview of the criminal justice process, forensic
                                                   process and goals, law enforcement investigation,
                                                   prosecution, prosecution and defense strategies,
                                                   case preparation and the pretrial conference,
                                                   testimony basics, difficult testimony issues, and
                                                   common problematic areas in sexual assault expert
                                                   testimony.

Sexual Assaults in the Military                    A historical overview of sexual assaults in the
                                                   military to include data and statistics pertaining to
                                                   sexual assaults in the DoD, DA, and civilian arenas
                                                   for comparison to the DA problem. Statistics and
                                                   knowledge of women who are at substantial risk for
                                                   sexual assault during their military career. Further,
                                                   other complicating factors for military victims such
                                                   as deployments, the offender is in the same unit,
                                                   and possibly collateral misconduct.

Sexual Assault Injuries                            An overview of the principles of forensic
                                                   documentation. Summarize the basic forensic
                                                   photographic procedures and techniques. List and
                                                   describe the common types of injuries encountered
                                                   in sexual assault and discuss their forensic
                                                   significance. Summarize the basic components of
                                                   the assessment and conclusions that can be fairly
                                                   drawn after completing the sexual assault forensic
                                                   exam.

Sex Offenders                                      Knowledge pertaining to sexual offenders, what
                                                   they think, and how they prey on a potential
                                                   victim’s vulnerabilities. Overview of common sex
                                                   offender behaviors and motives for their crimes.
                                                   Describe the danger sex offenders pose to society
                                                   by describing the true nature of their crimes. List
                                                   strategies to reduce the risk sex offenders pose to
                                                   communities.

Collection and Documentation of Forensic           An overview and description of how physiological
Physiological Evidence                             evidence can be used to understand trauma and its
                                                   effects. Also, describe how current forensic
                                                   physiological knowledge and practices compare
                                                   with current research. How to thoroughly identify,
                                                   document, and collect forensic physiological
                                                   evidence.



                                              16
Forensic Experiential Trauma Interview (FETI)        A thorough overview of the Forensic Experiential
                                                     Trauma Interview technique, which is a process in
                                                     domestic violence cases for interventions,
                                                     investigations, and prosecutions. This interview
                                                     technique draws on the best practices of child
                                                     forensic interviews, critical incident stress
                                                     management, and motivational interview
                                                     techniques combining them into a simple, three-
                                                     pronged approach to unlock the trauma experience
                                                     in a way to can better understand the victim.

Marital Sexual Assaults                              Statistical data and overview of marital rape or
                                                     spousal rape, which is nonconsensual sex in which
                                                     the offender is the victim’s spouse. Statistical data
                                                     and overview of domestic violence and sexual
                                                     abuse of offenders and victims who are married to
                                                     each other.

Expectations                                         Overview of policies and guidance and what HQ
                                                     CID’s expectations are of the Special Agent
                                                     investigating sexual assaults.

Ethanol-Facilitated Sexual Assaults                  A review the components of drug- and alcohol-
                                                     facilitated sexual assault and a discussion of the
                                                     clinical presentations, treatment, and medical legal
                                                     aspects of forensic evidence collection in these
                                                     cases.

Case Reviews                                         Instruction and overview of completed sexual
                                                     assault criminal investigations using lessons
                                                     learned, highlighting best practices and common
                                                     mistakes.

Impact of Sexual Assault                             An overview and instruction pertaining to memory
                                                     – what can an average person remember versus
                                                     what a person can remember who has faced some
                                                     serious trauma? What impact has this trauma had
                                                     upon the victim’s ability to remember details of the
                                                     sexual assault? Further, trauma of child abuse,
                                                     domestic violence, or rape can hinder the brain’s
                                                     ability to recall for years.

Male Victimization                                   This overview examines male sexual assault
                                                     victims - its uniqueness in both examination
                                                     techniques and physiologic responses to
                                                     examinations. This module offers several myths
                                                     regarding males who report sexual assault. Also,
                                                     describes the various barriers and psychological
                                                     impact that prevent males from seeking health care
                                                     following a sexual assault.

Sexual Assault Scenarios and Practicums              This overview is conducted by working groups who
                                                     are provided sexual assault scenarios to come up
                                                     with possible courses of action.


                                                17
False Reports/Case Determination                        An overview of false allegations and the
                                                        determination of case outcomes.

Forensic Experiential Trauma Interview Practical        An add-on to the classroom discussion pertaining to
Exercise                                                the Forensic Experiential Trauma Interview
                                                        technique. Given a scenario and role player, the
                                                        interviewer will use best practices of leading
                                                        questions to interview a victim who has
                                                        experienced trauma through a sexual assault and
                                                        obtain a thoroughly documented statement and
                                                        account of the sexual assault incident. The
                                                        interview is taped and critiqued by subject matter
                                                        experts to provide the interviewer the best possible
                                                        feedback.

Child Abuse Interviews                                  An overview of best practice interview techniques
                                                        of children who have been sexually abused.
                                                        Discusses interviewing factors, such as clinical,
                                                        forensic, and interrogation.

Victim Empathy                                          A module on how a criminal investigator should
                                                        represent an expression of empathy in which the
                                                        criminal investigator attempts to console the victim
                                                        and alleviate his/her distress. Further, educates the
                                                        investigator regarding the difference between
                                                        sympathy and empathy.



Although not required by DoD policy, the SVU course covers the essential training tasks
with the exception of crime scene management. The Chief, FALETD, explained that
crime scene training is covered in detail during initial training and is considered a basic
skill and not covered in detail in the SVU course. The only test for the SVU course is the
hands-on portion of practical exercises. SMEs critique each practical exercise and
discuss the critique with each student.

The SVU course includes a victim interview technique provided to enhance the student’s
ability to obtain key information during victim interviews. The technique, the Forensic
Experiential Trauma Interview (FETI) technique, was developed by the Chief, FALETD,
in collaboration with prominent sexual assault SMEs.

At the time of the review, the SVU course was not recognized by TRADOC and is not
cataloged in the Army Training Requirements and Resources System, 14 or based on
TRADOC standards. According to the Chief, FALETD, the course content is instead
based on industry “best practices,” to include practices outlined in the International
Association of the Chiefs of Police Sexual Assault Guidelines Model Policy,
“Investigating Sexual Assaults,” May 2005, which can be found at
http://www.theiacp.org/publicationsguides/modelpolicy/tabid/135/default.aspx. Further,

14
  Army Training Requirements and Resources System is the Department of the Army Management
Information System of Record for managing student input for training.

                                                   18
the Chief, FALETD, stated that the SVU course is based on parts of the International
Association of the Chiefs of Police training model, but it is more complex and is more
detailed than most civilian police models.

Navy

Advanced Family and Sexual Violence Training Program
The Advanced Family and Sexual Violence Training Program (AFSVTP) consists of
64 hours of training including child sexual assault. However, 33 1/2 of those hours are
devoted to adult sexual assault. A total of 24 students attend the training offered once a
year. During the AFSVTP, students conduct case reviews of previously completed NCIS
sexual assault investigations and complete a “table top” 15 exercise to guide students
through a sexual assault investigation. Students are currently not tested, but future
training will require a graded examination.
At the time of this evaluation, NCIS was working with CID and USAMPS FALETD to
incorporate parts of the CID SVU course into the AFSVTP course.
Table 8 provides a listing of the 15 training topics covered and details about each topic.
                         Table 8. AFSVTP Training Topics and Content
                 Topic                                                    Details

Adult Sexual Assault                         Sex offenders, memory and trauma, victimization process,
                                             victim interviews, and recantations.

Alcohol-Facilitated Sexual Assault           Alcohol-facilitated sexual assaults.

Overcoming the Consent Defense               Definition of consent, potential psychological consequences of
                                             sexual violence, victim participation in the criminal justice
                                             process, victim preference statement, myth busting, and
                                             offender-focused investigation and prosecution.

Intimate Partner Sexual Assault              Domestic violence and sexual assault.

Sexual Assault False Reporting               Recantations and false reporting, and factors influencing
                                             credibility and reporting of sexual assault.

Multiple Suspect Sexual Assault              Multiple suspect accused cases.

NCIS Policy                                  NCIS policies and procedures.

Polygraph                                    NCIS polygraph activities.

DNA, Trace, Latent                           DNA evidence collection, DNA analysis, CODIS, trace




15
  The term “table top” refers to a military or other exercise typically used to conduct structured walk-
through tests or simulations of a particular event or training scenario.

                                                     19
                                         evidence, and latent print branch.

Threat Management Unit (TMU)             Mission of the TMU.

Prosecutor’s Perspective                 Sexual assault investigations through the prosecutor’s
                                         perspective.

Interrogation of Sex Offenders           Interview and interrogating sexual assault suspects and
                                         offenders.

Testifying in Court                      Pretrial preparation and testifying

Human Trafficking                        Aspects of human trafficking.

Legal Issues                             New Article 120, statute of limitations Issues, MRE 413/414,
                                         Adam Walsh Act, Sexual Offender Registration, Protect Act,
                                         and Military Extraterritorial Jurisdiction Act



The AFSVTP does not cover all essential training tasks identified in DoDI 6495.02
including working with SARCs, VAs, and crime scene management. Further, the
Program Coordinator for Advanced Courses stated that although they discuss crime scene
management, it is not a major topic area. She explained that crime scene management is
a basic criminal investigative skill and agents who attend the advanced class should
already possess a working knowledge of the topic.

Air Force

Advanced General Criminal Investigation Course
Some AFOSI criminal investigators receive advanced sexual assault investigation
training during the Advanced General Criminal Investigation Course (AGCIC). The
AGCIC is an optional course held twice per fiscal year, developed as a train the trainer
course. Attendance is limited to 18 students per class and is provided to Superintendents
and Criminal Investigations Branch Chiefs. The AGCIC offers 4 hours of sexual assault
investigation training. AFOSI Forensic Science Consultants 16 and AFOSI Command
Psychologists teach the AGCIC sexual assault investigation training. The training is
based on the eight essential task requirements identified in DoDI 6495.02. A supervisor
who attended the AGCIC in 2012 believed the content of the course was approximately
50 percent sexual assault-related material and included discussions with Judge Advocates
on the revised Article 120, UCMJ.
The AGCIC is held in a seminar-type format and includes three lessons relative to sexual
assault investigations. We reviewed the slide presentations used during the three lessons
titled, “AGCIC Sex Assault Investigations,” “The Psychological Aspects of Sexual



16
  Special Agents who have graduated from an advanced, Masters-level academic program with specific
expertise in sexual assault, homicide, and other violent crimes.

                                                 20
Assault Offenders,” and “The Psychological aspects of the Victim” (August Criminal
Investigator Copy). Table 9 provides the topics covered with details of each topic.
                                Table 9. AGCIC Training Topics and Details
                      Topic                                               Details

Investigating Sexual Assaults                      Basic steps in sexual assault investigation initial
                                                   interviews, medical exams (outside the SAFE kit),
                                                   crime scene processing and documentation, and
                                                   victim clarification interviews.
Psychological Aspects of Sexual Assault            Cognitive component of rape, generalizations
Offenders                                          regarding convicted rapists, understanding a sexual
                                                   offender, pathways to offending, interview
                                                   techniques, and personality disorders.
Psychological Aspects of Sexual Assault Victims    Immediately following the trauma of sexual assault,
                                                   rape trauma syndrome, post-traumatic-stress
                                                   disorder, acute stress disorder, memory and trauma,
                                                   cognitive interview techniques.


The training addresses all but one (the victim services and support programs) of the eight
essential training tasks identified in DoDI 6495.02. Our review of the slides could not
determine the detail provided for each topic covered.

How do the MCIOs Ensure Sexual Assault Investigation Training
is Effective?
Each MCIO’s training element relied on student testing and/or course critiques to
measure the effectiveness of sexual assault investigation training during basic and
advanced sexual assault training. CID uses end-of-course critiques provided to the
student at the end of the training event to document the student’s assessment of the
course of instruction. The AFOSI uses a three-tier survey model during the BSIC. Tiers
1 and 2 are conducted at the AFOSI Academy. The tier 1 survey is the student’s
feedback for the course, and the tier 2 is the evaluation of the students while at FLETC
measured by tests and practical exercises. The tier 3 surveys are sent to new criminal
investigators’ supervisors approximately 6 months after the students have graduated. The
surveys are used to assist in future training development and potential curriculum
adjustments. The overall effectiveness of NCIS sexual assault investigation training
during the SABTP is also gauged with a three-tier survey model, using end-of-course
critiques, evaluation of students while at FLETC measured by tests and practical
exercises and a survey sent to both field supervisors and students approximately 18
months and 36 months following completion of a criminal investigator’s training. The
survey is used to obtain feedback from supervisors regarding a criminal investigator’s job
performance relative to the skills they learned in training. The feedback is used to
modify course content. Neither CID, NCIS, nor AFOSI appear to utilize tools to measure
the effectiveness of their respective refresher training programs.




                                                  21
Army
The CIDSAC (basic) and USAMPS SVU (advanced) course managers judge the
effectiveness of sexual assault investigation training based on critiques provided by
students during individual classroom sessions and critiques submitted subsequent to
course completion. Critiques are not used to measure the effectiveness of CID refresher
training.

Course managers for the SVU course told us that they take course critiques seriously, and
constructive, meaningful critiques are used to further develop effective and relevant
sexual assault investigation training. They told us they believed SVU training was
effective as the critiques have reflected overall positive student feedback.

Supervisors told us how training affected the sexual assault investigative process. Eight
supervisors told us they believed SVU training was effective and, as a result of the
training, the outcomes of sexual assault investigations were better than in previous years.
Of the eight supervisors, seven said the CIDSAC was a good overview of sexual assault
investigations. One supervisor explained that the CIDSAC course was poor as compared
to civilian police academies when providing basic skills for the investigation of sexual
assaults.

One criminal investigator told us refresher training in the form of sexual assault
investigative case file reviews was an effective means to provide refresher training, but
added there were too many investigative files to review and felt he had to rush through it.
Another criminal investigator told us the case file review refresher training was not
beneficial to him and one told us refresher training using PowerPoint slides was more “go
through the motions” than quality training.

Perceptions regarding the effectiveness of CID sexual assault investigation training
varied among CID criminal investigators. Two criminal investigators stated that they
believed their sexual assault investigation training was adequate, but another told us he
did not believe the training he received was adequate for investigating sexual assaults.
Regarding SVU training, one criminal investigator explained the training was extremely
valuable and her overall effectiveness in investigating sexual assaults had improved
dramatically. Another investigator told us he received adequate sexual assault
investigation training and the training provided some very basic skills to prepare him to
investigate sexual assaults. However, he felt more training should be dedicated to this
topic to ensure that he was fully capable of investigating such crimes.

Navy
The overall effectiveness of NCIS basic and advanced sexual assault investigation
training is gauged through end-of-course critiques. A survey is also sent to both field
supervisors and students approximately 18 and 36 months following completion of a
criminal investigator’s training. The survey is used to obtain feedback from supervisors
regarding a criminal investigator’s job performance relative to the skills they have
learned. The feedback is also used to modify course content if needed. Critiques are also
scanned and maintained for future reference. Additionally, metrics from the critiques are

                                            22
created and sent through NCIS command channels. Surveys or end-of-course critiques
are not used to measure the effectiveness of NCIS refresher training.
Perceptions regarding the effectiveness of NCIS sexual assault investigation training
varied among supervisors and case criminal investigators. We interviewed four
supervisors and three criminal investigators to gain their perspectives regarding the
effectiveness of sexual assault investigation training. Three supervisors told us the
training was effective and adequate for criminal investigators to investigate sexual
assaults when they return to their home station. The other supervisor had no comment
regarding the effectiveness of sexual assault training.
Two criminal investigators believed the SABTP sexual assault training was adequate.
Another told us that if he relied solely on the sexual assault investigation training he
received in SABTP, he would be “in trouble.” He said that he relied on previous training
he received prior to joining NCIS and, absent his previous training, he would have had
“little confidence in his ability to investigate sexual assaults.” He further explained that
although the training was beneficial in outlining how NCIS differs from other agencies, it
had little benefit regarding how to investigate a sexual assault and that little time was
spent on that subject matter. Another criminal investigator said most of his knowledge
concerning the investigation of sexual assault came from on-the-job training. All three
criminal investigators told us the training needed improvement. Suggestions offered for
improving the training included spending more time on learning the mechanics of how
sexual assaults happen, reporting requirements, restricted versus unrestricted reporting,
the role of the victim advocate, interrogation techniques, evidence collection, predator
profiles, and forensics training.
One NCIS Family and Sexual Violence Investigator told us he has not received any
refresher training. Criminal investigators believed the AFSVTP was good overall but
needed improvements. Suggestions offered for improving the training included adding
case reviews, forensics, investigative tools available to investigators, and interview
techniques specific to sexual assaults. One supervisor told us he would revamp the
course by removing material related to child sexual assault.

Air Force
The overall effectiveness of sexual assault investigation training during BSIC (basic) is
measured by student responses on FLETC-required surveys. The survey structure is
based on a three-tier survey model. Tiers 1 and 2 are conducted at the AFOSI Academy.
The tier 1 survey is the student’s feedback for the course, and the tier 2 survey is the
evaluation of the students while at FLETC determined by tests and practical exercises.
Tier 3 surveys are sent to a new criminal investigator’s supervisor after they graduate
from the AFOSI Academy. AFOSI Academy instructors also directly observe students’
investigative activities during the Detachment Operations exercise. The surveys are used
to assist in future training development and potential curriculum adjustments. Tier 3
surveys are sent to supervisors approximately 6 months after graduation. Surveys are not
used to measure the effectiveness of AFOSI refresher training.



                                            23
The survey asks AFOSI supervisors questions about how newly assigned criminal
investigators are progressing and what the investigators learned during training at
FLETC. Further, the survey asks if the new investigators are using the skills they
acquired during training. The survey also asks new criminal investigators about topics
such as the daily life of being an AFOSI Special Criminal investigator and the
effectiveness of their training as it relates to making them well-rounded criminal
investigators. The last BSIC course review in early 2010 included a review of the tier 3
survey. AFOSI trainers told us that the feedback from the surveys is used to modify
course content if needed. Critiques are also scanned and maintained for future reference,
and metrics from the critiques are created and sent through AFOSI command channels.

Perceptions regarding the effectiveness of AFOSI sexual assault investigation training
were uniform among supervisors and criminal investigators. We interviewed four
supervisors and five criminal investigators to gain their perspectives regarding the
effectiveness of sexual assault investigation training. The four supervisors told us the
training was effective and adequate for criminal investigators to investigate sexual
assaults.

The five criminal investigators believed BSIC provided sound fundamental investigative
principles and, as they observed, they believed recent graduates were arriving at their
units prepared for sexual assault investigations. Suggestions for improving the training
included adding instruction on evidence collection during restricted reporting, SARCs
and VAs, and victimology.

One criminal investigator told us the LMS refresher training should be updated with new
information making training more meaningful and one thought LMS was a good
overview, but not very beneficial. Another told us he did not believe refresher training
was beneficial because it was “click and read” type training and another said he could not
recall much of the on-line training, stating it became a “check the block” type of exercise.

One criminal investigator told us he would welcome any form of additional or advanced
sexual assault training to enhance the effectiveness of his sexual assault investigations.
The criminal investigators suggested more training on victims and victimology; the
psychology of interviewing victims, using real investigations and examples of sexual
assault investigations completed in the field; more SARC and VA training, specifically
regarding building relationships; evidence collection in restricted reporting; and changes
in sexual assault policies.


How do the MCIOs Leverage Their Resources and Expertise?
In June 2011, GAO recommended that the Military Services develop a plan for
“leveraging each other’s resources and expertise for investigating and adjudicating
alleged sexual assault incidents, such as by consolidating training programs and sharing
resources . . .”




                                            24
The DoD response to the GAO’s recommendation indicated that CID volunteered to lead
in the Defense Enterprise Working Group to develop of a plan for leveraging each
agency’s resources and expertise for investigating sexual assaults, especially in the area
of consolidated training programs and sharing of HQEs. USAMPS occasionally uses
civilian SMEs as instructors. In addition, CID invited and encouraged AFOSI and NCIS
agents to attend its SVU course. Further, during the course of this evaluation, CID
obtained financial support from DoD SAPRO to fund the attendance of NCIS and AFOSI
criminal investigators. NCIS and AFOSI were not involved in the development of CID’s
advanced course. Over the course of 11 SVU training sessions, USAMPS has trained 10
NCIS, 9 AFOSI, and 5 Marine Corps criminal investigators. However, AFOSI leadership
was not satisfied with aspects of the SVU course curriculum and desired more hours for
crime scene processing and evidence collection.

At the time of this evaluation NCIS was working with CID and USAMPS FALETD to
incorporate parts of the CID SVU course into the AFSVTP course, and members of
FALETD and other SMEs instruct during the AFSVTP course. Additionally, in March
2012, NCIS hosted a curriculum review conference attended by MCIO, Coast Guard, and
DoD IG representatives. The attendees assisted NCIS in assessing and improving the
AFSVTP curriculum.

Conversely, the AFOSI Academy does not leverage other MCIO training resources.
AFOSI relies on Air Force or FLETC instructors and resources. The AFOSI Academy
employs assigned AFOSI Forensic Science Consultants and rarely uses other outside
instructors or role players. AFOSI requires that instructors be FLETA certified as
material provided by outside resources cannot be tested in accordance with FLETC and
FLETA.

Conclusion
Initial Training
Not all initial baseline sexual assault investigation training provided by the MCIOs
comports with the requirements in DoDI 6495.02. The MCIOs are considered “DoD
sexual assault first responders.” Each category of DoD sexual assault first responders is
required to receive the same baseline training. The CID and AFOSI basic sexual assault
investigation training covers the required essential tasks, but the number of hours spent
on each topic varies. Further, the NCIS basic sexual assault investigation training
materials do not address all essential training tasks required by DoDI 6495.02. For
example, subtask topics including sex offenders, multiple suspects, domestic violence
sexual assault, and victim services and support programs are not covered, and, again, the
number of hours for the topics covered varied when compared to like topics and hours
taught by CID and AFOSI.

Periodic Refresher Training
All MCIOs provide periodic refresher training that comports with the requirements of
DoDI 6495.02. Formats for periodic refresher training vary among the MCIOs, including
reviews of briefing slides, on-line training programs, case review exercises, and mobile

                                           25
training team visits. We found each MCIO’s sexual assault refresher training addresses
all essential training tasks and complies with DoDI 6495.02.

Advanced Training
At the time of this evaluation, advanced sexual assault investigation training was not
required by DoD policy. Absent a standard against which to evaluate minimum
requirements, we comment only on whether each training course covered the essential
training tasks. CID and NCIS provide advanced sexual assault investigation training
programs. CID’s advanced sexual assault investigation training, the SVU course,
provides training in all but one of the essential training tasks in DoDI 6495.02. CID
considers crime scene management a basic investigative skill. Therefore, it is only
briefly discussed during the SVU course. NCIS’ advanced sexual assault investigation
course, the AFSVTP, does not address all essential training tasks including, working with
VAs and SARCs, and crime scene management. At the time of this evaluation, AFOSI
had no advanced sexual assault investigation training course, but provided 4 hours of
advanced sexual assault investigation training in the AGCIC. The AGCIC did not cover
all essential training tasks. The training covers all but one essential training task, that is,
victim services and support programs.

Effectiveness
All Services measure the effectiveness of basic and advanced sexual assault
investigations training by testing and/or using student course critiques. CID uses testing
and end-of-course critiques provided to the students at the end of the training event to
document the student’s assessment of the course of instruction. NCIS gauges the overall
effectiveness of sexual assault investigation training through testing and end-of-course
critiques. A survey is also sent to both field supervisors and students approximately 18
and 36 months following completion of a criminal investigator’s training. The survey is
used to obtain feedback from supervisors regarding a criminal investigator’s job
performance relative to the skills they have learned. The feedback is also used to modify
course content if needed. AFOSI uses testing and a three-tier survey model to assess the
effectiveness of its basic sexual assault investigations training. Tiers 1 and 2 are
conducted at the AFOSI Academy. The tier 1 survey is the student’s feedback for the
course, and tier 2 is the evaluation of the students’ performance while at FLETC
measured by tests and practical exercises. Tier 3 surveys are sent to new criminal
investigators’ supervisors around 6 months after the investigators have graduated the
AFOSI Academy. The surveys are used to assist in future training development and
potential curriculum adjustments.

MCIOs do not use formal instruments, such as course critiques, surveys or other forms of
feedback to measure the effectiveness of periodic refresher training and we found little
evidence that feedback from refresher training is used to improve or modify course
content.

Leveraging Resources
GAO Report No. 11-579 recommended that the Services develop a plan for “leveraging
each other’s resources and expertise for investigating and adjudicating alleged sexual

                                              26
assault incidents, such as by consolidating training programs and sharing resources . . .”
but we found little evidence of joint planning and no actual consolidation of training
programs. The MCIOs have made some progress toward leveraging resources. CID
invited NCIS and AFOSI to attend the SVU course and CID obtained funding for their
attendance from DoD SAPRO. NCIS investigators attend the SVU course, and some
AFOSI agents also attended, but AFOSI chose not to send additional attendees.
Additionally, both the Army’s SVU course and Navy’s AFSVTP course use some of the
same HQEs and SMEs.

Recommendations, Management Comments, and Our
Response

Revised Recommendation
As a result of management comments, we slightly revised our draft recommendations.

Some comments caused us to correct or modify our report or clarify terms, which were
incorporated into the body of the report. Some comments included references to material
that was not provided in response to our request for data on which some findings were
based. Other comments highlighted initiatives enacted by the MCIOs subsequent to the
completion of our fieldwork and preparation of the draft report. We support and applaud
all efforts undertaken to improve MCIO sexual assault investigation training; however,
we did not modify our report to reflect these changes.

Overall, the MCIOs concurred with our report and recommendations, advising they have
begun many new initiatives. For example, the USAMPS SVU course was reviewed and
accredited by FLETA and certified by TRADOC. USAMPS has also leveraged the
expertise of nationally known experts to provide research and assist in curriculum
development for the SVU course and refresher training. NCIS hosted USAMPS’s SVU
course at FLETC and worked with USAMPS to modify the course to align with NCIS
needs. AFOSI provided information about the new Basic Extension Program (BEP),
which uses interactive distance learning courses to systematically build upon the basic
skills obtained during BSIC. The BEP includes instruction on both adult and child sexual
assault investigations. As mentioned in our draft, AFOSI developed an 8-day advanced
sexual assault investigation training course. AFOSI commented that in August 2012,
they conducted a pilot of the AFOSI Sex Crimes Investigations Training Program
(SCITP) for 24 students and invited NCIS to participate. They are currently recruiting
outside SMEs to provide instruction and plan to hold three additional training iterations.
Additionally, AFOSI commented about recent improvements to AGCIC, raising sexual
assault specific hours to 16 and providing forensic photography, crime scene processing,
investigative planning, and major case management. We corrected page 4 to reflect that
initial AFOSI sexual assault investigation training occurs during BSIC, not CITP.

We received management comments on a draft of this report. They are summarized and
addressed below:



                                            27
1. We recommend that the Director, Naval Criminal Investigative Service, ensure
lesson materials for initial sexual assault investigation training covers all essential
training tasks.

NCIS Comments
NCIS outlined additional actions they will take to ensure compliance with DoDI 6495.02.
NCIS indicated topics of instruction we identified as not being covered, while not all
delineated by specifically titled Enabling Performance Objectives (EPOs) or PowerPoint
training slides, are all addressed during SABTP instruction. Comments indicate that the
Director, Naval Criminal Investigative Service, ensures initial sexual assault investigation
training covers all essential training tasks. Further, NCIS will develop and implement, as
appropriate, EPOs and/or PowerPoint training slides for SABTP [and AFSVTP] that
mirror the titles of the essential tasks identified in DoDI 6495.02.

Our Response
NCIS’s comments are responsive. Regarding SABTP, NCIS indicates the identified
topics are addressed in LPs 2331, 2332, and 2314. However, a re-examination of those
lesson plans, with the exception of 2314, “Domestic Violence,” which we did not receive
as a result of our data call, indicates that the essential training task topics were not clearly
outlined in those materials. For example, descriptive details concerning training relating
to Sex Offenders, Multiple Suspects, Domestic Violence Sexual Assault, and Victim
Services and Support Programs were incorporated with other training topics and were not
addressed in those lesson plans. Further, because we did not receive lesson plan 2314
“Domestic Violence” during our data call we could not assess the training. No further
comments are required.

2. We recommend that the Director and Commanders of the Military Criminal
Investigative Organizations form a working group to review:

        a. Initial baseline sexual assault investigation training programs to establish
           common criteria and minimum requirements.
        b. Periodic refresher sexual assault investigation training programs to
           establish common criteria and minimum requirements for measuring
           effectiveness of sexual assault investigation refresher training.
        c. Advanced sexual assault investigation training programs to further
           capitalize on efforts to leverage training resources and expertise, working
           toward participation in a common advanced training course using shared
           facilities and resources.
Management Comments
CID, NCIS, and AFOSI provided comments and/or clarifications to the draft report.
AFOSI agreed with Recommendation 2, indicating once our final recommendations are
published, AFOSI will engage with CID and NCIS staffs to collaboratively address the
issues identified in this recommendation.

Recommendation 2a

                                              28
We did not receive specific comments from the CID or NCIS regarding recommendation
2a.

AFOSI Comments
AFOSI advised they train agents to investigate violent crime and that sexual assault cases
are a subset of violent crime. AFOSI commented many of the skills AFOSI teaches, (i.e.,
evidence recognition, collection and documentation, crime scene processing and
documentation, interviews and interrogations, etc.), are requisite to the proper handling of
any violent crime, to include sexual assault. AFOSI disagreed with our finding that they
provide 4 hours of sexual assault investigation training during BSIC. They provided
details regarding more than 35 hours of training provided to new agents directly related to
the essential training tasks.

Our Response
We arrived at our conclusion based upon a review of the materials provided in response
to our request for data, which amounted to 4 hours of classroom training supplemented
by a 1-week capstone exercise. Our discussions with training academy and Headquarters
staff did not provide information regarding training hours beyond those reflected in the
lesson plans provided. We do not doubt the information in the management comments
and we are pleased to learn that the actual training exceeds 4 hours. We revised our
report accordingly. Regardless of the number of hours provided, our conclusion and our
recommendation regarding initial training are unaffected. No further comments are
required.

Recommendation 2b

CID Comments
CID commented that the recommendation was not supported by any discussion or
findings in the report. They indicated that because the requirements for the refresher
training are outlined in the DoDI, and that the MCIOs were conducting adequate
refresher training, a working group of just the MCIOs is not appropriate.

NCIS Comments
NCIS reported that there are no plans to implement a method of evaluation to measure
effectiveness of periodic refresher training.

AFOSI Comments
AFOSI indicated, absent specific DoD training objectives for each task, AFOSI has
developed what it believes to be sufficient instruction for its criminal investigators.

Our Response
We modified Recommendation 2b making it specific to the effectiveness of periodic
refresher training. We found that MCIO periodic refresher training is adequate and meets
the DoD minimum requirement. We also modified our report to include a discussion and

                                             29
conclusions relative to the lack of MCIO efforts to measure the effectiveness of periodic
refresher training. DoDD 1322.18, “Military Training” January 13, 2009, states “it is
DoD policy that. . .[m]embers of the Department of Defense shall receive, to the
maximum extent possible, timely and effective individual, collective, and staff
training….” To provide instruction and not measure its effectiveness does not achieve
generally accepted Federal Government training requirements, which state, “Within the
Federal Government where mission accomplishment is vital and change is the only
constant—training, and the effective evaluation o[f] training, is critical,” as outlined in
the United States Office of Personnel Management Training Evaluation Field Guide,
January 2011. We believe this also applies to Service refresher training requirements.
Additionally, The Kirkpatrick Model, as highlighted in the FLETA Standards and
Procedures Manual, states that to measure the effectiveness of training student feedback
or critique forms are used to measure to what degree the training participant reacts
favorably to training further validating courses of instruction. No further comments are
required.

Recommendation 2c

Although none of the MCIOs directly commented on recommendation 2(c), they did
point out the following:

CID Comments
CID reported that NCIS has partnered with USAMPS to conduct joint SVU training for
their agents in FY2013, and CID (USAMPS) and NCIS share subject matter experts
expertise. CID reported two SVU courses are conducted annually at FLETC exclusively
for NCIS agents and have been modified to include additional crime scene processing,
evidence collection, and sexual assault nurse examiner training.

NCIS Comments
NCIS commented both NCIS and AFOSI collaborated to leverage resources to develop a
joint advanced sexual assault investigations training course; however the initiative was
not implemented due to lack of funding.

AFOSI Comments
AFOSI commented that many well qualified instructors or SME consultants (including
two Ph.D. clinical psychologists) present or contribute to AFOSI training curriculum
pertaining to violent crime, and they have invited a civilian prosecutor, well-respected
across the DoD sexual assault community, to instruct during the recently instituted
advanced sexual assault investigation training course. They feel our focus for objective
three should be on the qualifications of AFOSI instructors and SMEs, not on whether
non-AFOSI instructors are leveraged to provide training.

Our Response
We support GAO’s recommendation for the Service Secretaries to “develop a plan for
leveraging each other’s resources and expertise for investigating and adjudicating alleged
sexual assault incidents, such as by consolidating training programs and sharing

                                             30
resources, including highly qualified experts who are used to advising criminal
investigators and judge advocates.” Therefore, we stand by our recommendation for a
MCIO working group that will continue to capitalize on the efforts already undertaken.
No further comments are required.




                                           31
Appendix A. Scope and Methodology
We performed this evaluation from September 8, 2011, to October 15, 2012. Our work
includes an independent review of the MCIOs’ initial, periodic refresher, and advanced
sexual assault investigation training courses. We reviewed the sexual assault
investigation training provided to MCIO investigators and the processes used by each
MCIO to develop and improve sexual assault investigation training to ensure
effectiveness.

In order to familiarize ourselves with tasks expected in any level of sexual assault
investigation training, we reviewed a number of SART protocols from the San Diego
police department and the states of Virginia, Illinois, and California. Additionally, we
reviewed documents developed by the International Association of Chiefs of Police
(IACP), which incorporate the research findings, the input of leading subject matter
experts, and the professional judgment of advisory board members who have combined
this information with their extensive practical field and management experience. The
IACP Model Policy, “Investigating Sexual Assaults,” May 2005, which can be found at
http://www.theiacp.org/publicationsguides/modelpolicy/tabid/135/default.aspx, contains
a list of 55 industry best practices. It also includes a caveat that, “law enforcement
administrators should be cautioned that no ‘model’ policy can meet all the needs of any
given law enforcement agency.”

Through interviews and document reviews, we assessed the degree to which each course
of instruction addressed the eight essential training tasks mandated within DoDI 6495.02.

In addition to the training provided, we reviewed how the MCIOs assessed the
effectiveness of sexual assault investigation training and made adjustments. Our work
entailed reviews of training end-of-course critiques, course and exercise grade sheets,
criteria for practical exercise critiques, graduation and supervisory validation survey
reports, performance objectives, and instructor biographies and training certifications.

Our work included a review and analysis of sexual assault investigation training,
including the design of MCIO sexual assault investigation courses of instruction, course
curriculums, lessons plans, programs of instruction, class presentation material, and
reference materials used to support training and training development.

We interviewed MCIO investigative operations leadership, to include the CID Assistant
Deputy Chief of Staff for Operations and Intelligence; NCIS Family and Sexual Violence
Desk Officer; AFOSI Associate Director, Criminal Investigations; and nine senior field-
level supervisors to determine how effective they believed their respective sexual
investigation training was. We also discussed how the MCIOs leverage resources. We
interviewed 17 criminal investigators and other former students who attended MCIO
sexual assault investigation training. Our discussions with the criminal investigators and
former students centered on effectiveness of the sexual assault investigation training they
received. We interviewed seven MCIO course developers and trainers to determine what
sexual assault investigation training was provided to the MCIOs, how they measured

                                            32
training effectiveness, and how they determined training was effective. We interviewed
three members of the Service’s legal community who specialize in the field of sexual
assault for perspective on sexual assault investigation training. We also interviewed
12 sexual assault investigation subject matter experts who specialize in the investigation
and prosecution of sexual assault, sexual assault investigation training development, and
research to gain insight on the need for and development of sexual assault investigation
training.

We interviewed research directors at End Violence Against Women International and
The International Association of Chiefs of Police; an Associate Professor of Psychology
at the University of Massachusetts, Boston; a Sexual Assault Prevention and Response
advisor for the Department of the Navy; and a former DoD SAPRO Deputy Director.
The content of our interviews included discussions regarding sexual assault investigation
training development, training execution, the effectiveness of sexual assault investigation
training, and training improvement assessment tools. In addition to training, we
discussed the development and publication of sexual assault investigation model polices.

Additionally, we considered potential opportunities for the MCIOs to leverage training
resources and expertise to achieve mutual benefits, and avoid duplication. We discussed
how the MCIOs currently leverage resources for conducting sexual assault investigation
training; developing and sharing training resources, such as subject matter experts; and
developing future course content for periodic (advanced and refresher) sexual assault
investigation training.

In conducting this review, we used the preponderance of the evidence standard, which is
that degree of relevant evidence that a reasonable person, considering the record as a
whole, would accept as sufficient to find that a contested fact is more likely to be true
than untrue.




                                            33
CID Comments




Reference




               34
35
36
37
NCIS Comments




                38
39
40
41
AFOSI Comments




                 42
43
44
45
46
Glossary
AGCIC      Advanced General Crime Investigations Course
AFOSI      Air Force Office of Special Investigations
AFSVTP     Advanced Family and Sexual Violence Training Program
BSIC       Basic Special Investigations Course
CID        U.S. Army Criminal Investigation Command
CIDSAC     CID Special Agents Course
CITP       Criminal Investigations Training Program
DA         Department of the Army
DODD       Department of Defense Directive
DOD IG     Department of Defense Inspector General
DODI       Department of Defense Instruction
EPO        Enabling Performance Objectives
FLETA      Federal Law Enforcement Training Accreditation
FLETC      Federal Law Enforcement Training Center
FALETD     Family Advocacy Law Enforcement Training Division
GAO        Government Accountability Office
HQ         Headquarters
HQE        Highly Qualified Expert
ISD        Instructional System Design
LMS        Learning Management System
MCIO       Military Criminal Investigative Organization
MPID       Military Police Investigation Division
MTT        Mobile Training Teams
NCIS       Naval Military Criminal Investigative Service
SABTP      Special Agent Basic Training Program
SAFE       Sexual Assault Forensic Examination
SAPR       Sexual Assault Prevention and Response
SAPRO      Sexual Assault Prevention and Response Office
SARC       Sexual Assault Response Coordinators
SART       Sexual Assault Response Team
SAT        Systems Approach to Training
SME        Subject Matter Expert
SSA        Supervisory Special Agent
SVU        Special Victims Unit
TPO        Terminal Performance Objective
TRADOC     Training and Doctrine Command
UCMJ       Uniform Code of Military Justice
USAMPS     United States Army Military Police School
VA         Victim Advocate




                       47
48
